      BASELINE REPORT ON
MAJOR PROJECT MONITORING OF THE
  DULLES CORRIDOR METRORAIL
           PROJECT
       Federal Transit Administration

       Report Number: MH-2007-060
        Date Issued: July 27, 2007
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Baseline Report on the                              Date:    July 27, 2007
           Dulles Corridor Metrorail Project
           Federal Transit Administration
           Report Number: MH-2007-060
  From:                                                             Reply to
           Rebecca Anne Batts                                       Attn. of:   JA-40
           Acting Assistant Inspector General
            for Surface and Maritime Programs
    To:    Federal Transit Administrator


           We have completed our initial major project monitoring of the Dulles Corridor
           Metrorail Project in the Washington, D.C., metropolitan area. Our objectives were
           to (1) assess the status of the Dulles Project, including costs, funding, and schedule
           and (2) identify any potential risks that may adversely impact the project’s
           completion. This report provides the results of our initial monitoring effort, alerts
           you to potential risk areas for the project, and underscores the need for the Federal
           Transit Administration (FTA) to provide vigilant oversight. The Department of
           Transportation (DOT) has a vested interest in the Dulles Project. Of particular
           interest to DOT is the large amount of Federal funding that could eventually be
           committed to the project and DOT’s long-term lease agreement with the
           Metropolitan Washington Airports Authority (MWAA) to manage Dulles
           International Airport, Ronald Reagan Washington National Airport, and the
           surrounding Federal lands. Further, the Commonwealth of Virginia is planning to
           turn over project control to MWAA this year.

           Because the project is at a critical decision point in FTA’s New Starts process,
           now is the time to fully evaluate all potential risks and develop mitigation
           strategies. The New Starts process stands out among Federal transportation grant
           programs as an example of a systematic approach to evaluating projects for
           funding. The New Starts program relies on full funding grant agreements, which
           are long-term funding commitments that help meet the financial requirements of
                                                                                                                       2


large transit projects. 1 The Dulles Project sponsors have requested $900 million in
New Starts funding, which is under consideration by FTA.

Segmented into two phases, the main focus of our report is Phase I of the Dulles
Project, because only this phase is being assessed for an FTA New Starts grant and
few details are available regarding Phase II. Phase I would expand Metrorail to
Reston, Virginia. Continuation of the Metrorail to Dulles International Airport
would occur in Phase II. We conducted our work from June 2006 to July 2007 in
accordance with Generally Accepted Government Auditing Standards as
prescribed by the Comptroller General of the United States. We will continue to
monitor this project and report on its progress as events warrant. See Exhibit A
for a fact sheet summarizing the status of the project. Our scope and methodology
are discussed in Exhibit B.

BACKGROUND

The Dulles Corridor Metrorail Project proposes a 23.1-mile extension of Metrorail
in the Commonwealth of Virginia, including 11 additional Metrorail stations. It
would also add a new Metrorail line—the silver line—to the existing mass transit
system operated by the Washington Metropolitan Area Transit Authority
(WMATA). The Dulles Metrorail extension is almost entirely above ground. The
project is segmented into two distinct phases, which are essentially separate transit
projects. See Exhibit C for a map of the two phases.

• Phase I is the first 11.6-mile segment that would run from near the existing
  West Falls Church Metrorail Station and through the Tysons Corner area to
  Wiehle Avenue in Reston, Virginia. As currently envisioned, Phase I would
  run largely above ground with a short tunnel section under the Route 7 and
  Route 123 interchange.
• Phase II would continue Metrorail service through the Dulles International
  Airport to Loudoun County, Virginia.

Over the past year, the project has generated a great deal of attention and
controversy. Most prominently, there have been debates over whether or not to
proceed with the project’s current design, which runs almost entirely above
ground, or to substitute this design with a large tunnel through the Tysons Corner,
Virginia, area. In May 2006, the Virginia Secretary of Transportation appointed a
panel to review this issue under the auspices of the American Society of Civil
Engineers. Although the panel reported that the tunnel was feasible and

1
    The purpose of the New Starts program is to provide Federal financial support for locally planned and operated
    public transit. Federal support is in the form of competitive, discretionary capital investment grants in local fixed
    guideway transit projects, such as commuter rail, light rail, heavy rail, bus rapid transit, trolleys, and ferries.
                                                                                                           3


potentially cost-effective, the panel’s report had qualifications and uncertainties.
In September 2006, the Governor decided to retain the original design of the
project, and project officials have proceeded accordingly since then. However,
there is still strong pressure from the public, local government officials, and
citizen groups to build a tunnel.

New Starts projects like Dulles must emerge from a regional, multimodal
transportation planning process. The systems planning process begins with the
identification of the transportation needs of a region. Federal financial support for
the initial planning process is derived from various programs within the Federal
Highway Administration and FTA. Once this planning has been done, the next
step is the alternatives analysis, which evaluates corridor-level options, such as rail
lines and highway expansions. This stage results in the selection of what is known
as the locally preferred alternative—which then becomes the New Starts project
FTA evaluates for funding. The project sponsor then submits to FTA a request for
entry into preliminary engineering—where FTA begins its evaluation of the
project, and approves it for entry into the New Starts funding pipeline.

From preliminary engineering the project may proceed through final design, award
of a full funding agreement, and ultimately construction. At each of these stages,
FTA evaluates the project for advancement into the next stage. Annual funding
recommendations are made for projects that are in final design or construction as
part of FTA’s annual budget submission. However, a recommendation for
funding does not guarantee that a full funding grant agreement will be executed.
As required by law, FTA cannot execute a full funding grant agreement until it has
given Congress 60 days to review the grant agreement and accompanying
materials. 2 As of July 2007, the Dulles Project is being considered for approval
for entry into final design. Figure 1 depicts the planning and project development
process.




2
    OIG Testimony CC-2004-021, “The Rating and Evaluation of New Starts Transit Systems,” April 28, 2004. OIG
    testimonies and reports can be accessed at our website: www.oig.dot.gov.
                                                                                                                4


   FIGURE 1. FTA NEW STARTS PLANNING AND PROJECT DEVELOPMENT PROCESS

                                                                                 Corridor Planning
              FTA Action                         Alternatives Analysis
                                                                                 - FTA review of alternatives
                                                                                 at beginning of alternatives
              Decision Point                                                     analysis

Legend:                                           Select LPA, MPO
FFGA – Full Funding Grant Agreement
                                                     Action, PE
FONSI – Finding of No Significant Impact          Application, PMP
LPA – Locally Preferred Alternative
MPO – Metropolitan Planning Organization
NEPA – National Environmental Policy Act
PE – Preliminary Engineering
PMP – Project Management Plan
ROW – Right-of-Way                                                               - FTA approves New Starts
                                                    FTA Evaluation
                                                      to Enter PE                baseline alternative




                                             Preliminary Engineering
                                                Complete NEPA Process              Preliminary
                                               Record of Decision/FONSI            Engineering
                                           Refinement of Financial Plan, PMP
       Project Management Oversight


       Financial Capacity Assessment




                                                   FTA Evaluation to
            Technical Oversight




                                                   Enter Final Design
               Quality Control




                                                     Final Design                  Final Design
                                            Commitment of Non-Federal Funds
                                           Construction Plans, ROW Acquisition    - Before and after data collection
                                                                                  plan
                                               FTA Evaluation for FFGA



                                                     Full Funding
                                                    Grant Agreement



                                                Complete Final Design              Construction
                                                 Begin Construction
                                                Construction Management
   Source: FTA.                                         Start-up
                                                                                                                            5


           FTA evaluates proposed New Starts projects based on a set of financial and project
           justification ratings as shown in Figure 2. The ratings are measured on a scale of
           high, medium-high, medium, medium-low, or low. The individual ratings are
           combined and included in the summary financial and project justification ratings,
           based on weights assigned to each measure. By law, projects must receive an overall
           summary rating of at least medium to be recommended for funding. In addition,
           notwithstanding their overall project rating, FTA’s policy is to generally not
           recommend for funding any project that does not receive a rating of at least medium
           for cost-effectiveness. Although Congress, in the 2005 Safe, Accountable, Flexible,
           and Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU),
           exempted the Dulles Project from this cost-effectiveness policy, the Dulles Project
           must still achieve a cost-effectiveness rating of at least medium-low to receive an
           overall rating of medium. In its fiscal year 2008 New Starts Report to Congress, FTA
           assigned preliminary ratings to Dulles of medium-low for cost-effectiveness and a
           summary rating of medium. Every year, FTA publishes this report, which includes
           preliminary ratings for pending projects. As of July 2007, FTA was assessing the
           cost-effectiveness of the project, among other things, to determine whether the project
           will be approved to enter final design.

                      Figure 2. The New Starts Evaluation and Rating Framework

                                                                        Summary Rating


                                               Project Justification                       Financial Rating
                                                     Rating

                                    Other Factors                  Non-Section 5309        Capital Finances            Operating Finances
                                                                        Share

  Mobility               Environmental               Operating              Cost Effectiveness              Land Use
Improvements               Benefits                 Efficiencies

               User Benefits                                                                 Capital Cost


               Low Income                                                                        O&M Cost
               Households

                               Employment                                                   User Benefits


           Source: FTA.
                                                                                                                           6

RESULTS

FTA will be challenged by overseeing the complex Dulles Corridor Metrorail Project,
which has a large potential Federal investment. Approximately $1.5 billion of Federal
monies could be committed to Phase I of the project—a $900 million New Starts
grant, a $375 million DOT Transportation Infrastructure Finance and Innovation Act
(TIFIA) loan, plus a $200 million line of credit to be used if needed. We have
identified some risk indicators that merit FTA’s close monitoring in light of this
potentially large Federal investment. In some cases, we have observed similar risk
indicators on other high-risk, federally-funded transportation projects as discussed
below. We make recommendations at the end of this report.

The Dulles Project Has Already Experienced Significant Cost
Growth and Schedule Slippages, Underscoring the Need for a
Rigorous Assessment of the Project

Even at this early stage, Phase I of the Dulles Project has experienced substantial
growth in estimated costs of approximately $1 billion since 2004. The project has
also had schedule slippages of about 4 years (as shown in Table 1). In past reviews of
major projects, rapid cost growth and schedule slippages so early in the project were
clear signs of risk. The reliability of the current cost estimate is unknown. FTA’s
project management oversight consultant has identified problems with previous cost
estimates. 3

        Table 1. Phase I History of Cost Increases and Schedule Delays

      Date of Estimate                  Estimated Project Cost                         Estimated Project
                                                                                       Completion Date
       December 2004                            $1.52 billion                                2009
         April 2006                            $2.065 billion                                2011
        January 2007                            $2.31 billion                                2012
         March 2007                           $2.4 - 2.7 billion                             2013

Current Cost Estimate. The current cost estimate of $2.4 billion to $2.7 billion
reflects the results from design-build negotiations with Dulles Transit Partners, which
were completed on March 30, 2007. This contract with Dulles Transit Partners has a
firm-fixed price component of $1.1 billion plus a $500 million allowance for Dulles
Transit Partners to engage subcontractors through competitive bidding. The rest of
the cost estimate—referred to as agency costs—is not fixed or part of the contract
with Dulles Transit Partners. The cost estimate was presented by project sponsors as
a range because there is uncertainty as to the amount of these agency costs. Agency
costs include project management, rail cars, start-up, and testing. According to
3
    FTA has institutionalized the use of project management oversight consultants (PMOCs) and financial management
    oversight consultants (FMOCs) to oversee large transit projects and to report to its in-house staff on findings and needed
    corrective actions. They are third-party contractors who review FTA-funded projects in accordance with FTA guidance.
                                                                                        7

project sponsors, these agency costs could range from $800 million to as much as $1.1
billion. FTA and its project management oversight consultant are currently assessing
the cost estimates as the project is being evaluated to enter final design. To its credit,
FTA has recognized the risks and complexities of this project and has taken steps to
rigorously assess the cost and schedule risks. FTA commissioned a review of the
project’s cost estimates in addition to the usual New Starts reviews. The firm
conducting the review has not been involved in the project.

Cost-Effectiveness of the Project. Cost-effectiveness is one of several criteria that
FTA uses to assess the merits of potential New Starts projects, such as Dulles, and
make a decision as to whether to provide full funding. Earlier this year, the project
was already near an unacceptable cost-effectiveness rating of low, when the cost
estimate was much lower, $2.065 billion. Now the cost estimate could be as much as
$2.7 billion. The project must achieve a final cost-effectiveness rating of at least
medium-low or it will not be eligible for New Starts funding. Achieving this rating
may prove difficult with the current cost increases.

Project’s Design-Build Contract and Competition. One possible cause of the cost
growth may be the timing of the contract award and the limited competition. Virginia
entered into the first contractual arrangement with Dulles Transit Partners at the
beginning of preliminary engineering in 2004, when there were still many unknowns
about the project.

• Virginia awarded a contract for preliminary engineering with limited competition.
  In December 1998, Virginia received an unsolicited proposal and then solicited
  bids for the project, receiving only one additional proposal. Using its state public-
  private partnership authority, in June 2004, Virginia awarded a “comprehensive
  agreement” to Dulles Transit Partners, a joint venture of Bechtel Infrastructure,
  Inc. and Washington Group International. By the time the comprehensive
  agreement was executed, only the Dulles Transit Partners’ offer was available.

• The comprehensive agreement appears to allow advertising the eventual design-
  build contract (final design and construction) work to others, on a competitive
  basis, only upon failure to reach a final agreement with Dulles Transit Partners.
  Negotiations with Dulles Transit Partners were concluded on March 30, 2007, and
  Dulles Transit Partners was actually awarded the design-build contract in June
  2007. Therefore, there was no competition for this stage of the project.

• The design-build contract with Dulles Transit Partners calls for an increase to the
  contract price for each day that the notice-to-proceed for commencement of final
  design is delayed past August 1, 2007. If this deadline is not met—and it appears
  unlikely that it will be—the effects on project costs could be significant.
                                                                                                                           8

FTA Needs Assurance That Sponsors Have Identified Sufficient
Local Funding Sources, as Estimated Project Costs Have Increased
Significantly

As estimated project costs for Phase I have increased by approximately $1 billion
since 2004, funding requirements have also grown. In particular, the potential Federal
investment (grant, loan, and line of credit) is quite large. All funding sources are
subject to review and approval by DOT, and approval of Federal funds is not
necessarily a given. The remainder of the costs must be borne by the project
sponsors.

Sources of Federal Investment. Because project officials have applied for funding
to two DOT programs, the project will undergo two separate Federal financial
reviews. It is imperative that these reviews be rigorous to ensure that project officials
have demonstrated access to sufficient and reliable funds from other sources, such as
Dulles Toll Road revenues, to complete the project if costs continue to escalate.

• The project’s proposed New Starts grant, which would be fixed at $900 million,
  would only cover about one-third of the new cost estimate for Phase I. Approval
  of New Starts requires FTA to review proposed sources of local capital funding.
  Additionally, FTA’s financial management oversight consultant is scheduled to
  review the final financial plan before FTA allows the project to enter final design.
  As we have reported in the past, only the most promising New Starts projects
  should be selected for funding. 4

• MWAA applied for a DOT TIFIA loan of $375 million in January 2007, plus a
  $200 million TIFIA line of credit to be used if needed. The loan would be secured
  by Dulles Toll Road revenues. 5 The DOT TIFIA Credit Council must evaluate
  MWAA’s application and must advise the Secretary of Transportation on whether
  or not to approve the application. 6 An independent review by the TIFIA Credit
  Council is critical. FTA must closely coordinate with the TIFIA Credit Council
  and provide it with the information it needs to make a sound decision regarding
  the project’s credit worthiness.



4
    OIG Testimony CC-2004-021, “The Rating and Evaluation of New Starts Transit Systems,” April 28, 2004.
5
    TIFIA’s implementation is the responsibility of the Secretary of Transportation. A seven-member TIFIA Credit Council,
    representing the budget, policy, counsel and intermodal offices within the Office of the Secretary and the Administrators
    of the FHWA, the FTA, and the Federal Railroad Administration, provides direction and makes recommendations to the
    Secretary regarding the selection of projects. Staff support is provided by the TIFIA Joint Program Office, which is
    administratively located in the FHWA.
6
    TIFIA staff informed us that MWAA’s application is permissible even though MWAA is not completely in charge of the
    project. However, they also told us the TIFIA loan would not be approved, nor funds released, until MWAA has been
    certified as the FTA grantee.
                                                                                     9

Sources of Local Funding. If approved, the Federal funding sources would only
cover a portion of the project’s costs. To get a sense of how MWAA intends to fund
the project when it takes over, we reviewed a preliminary financial plan prepared in
January 2007 (if the project is approved to enter final design, a formal financial plan
would be prepared for FTA’s review). Based on our review of this preliminary plan,
we have made the following observations regarding the project’s local funding
sources.

• The preliminary financial plan was based on a lower cost estimate than the cost
  estimate announced in March 2007 ($2.3 billion in January 2007, compared to as
  much as $2.7 billion). As of July 2007, even more local funding would be needed.

• Of particular note is the project’s heavy reliance on Dulles Toll Road revenues to
  cover the local share. According to the January 2007 preliminary plan, MWAA
  proposed to rely heavily on Dulles Toll Road revenues—in the amount of
  $777.6 million, including paying back the TIFIA loan. Further, as part of the
  agreement to manage the Dulles Toll Road, MWAA also will have to fund
  improvements and repairs to the road. The project could be endangered if these
  revenues are not sufficient to cover project costs and maintain the road. Users of
  the Dulles Toll Road could be subjected to large toll increases in the future if
  higher project costs require more and more local funding. We are not aware of
  any legal or contractual limits on how high the tolls could be set, and the
  December 29, 2006 “Dulles Toll Road Permit and Operating Agreement” between
  MWAA and the Virginia Department of Transportation does not limit MWAA’s
  authority to increase toll rates, although it requires some public hearings and
  consultations.

• Fairfax County’s total contribution, which it expects to collect from business taxes
  in a special Dulles Rail Transportation Improvement District, decreased in the
  January 2007 preliminary plan from what was previously announced. Previously,
  the Fairfax County share included an additional $182.7 million to be provided
  through debt or general fund revenues (on top of proceeds from the business tax
  district). This amount was no longer included in the January 2007 financial plan.
  Further increases in funding demands could once again put pressure on Fairfax
  County to commit funds beyond any proceeds from the business taxes.

Before awarding a full funding grant agreement, FTA should ensure that all local
funding sources are secure and stable enough to cover any increased costs. On prior
occasions, we recommended that FTA delay funding decisions until it could resolve
significant questions regarding proposed funding sources, among other things. In a
prior report on the Seattle Central Link Light Rail Project, we reported that FTA did
not ensure that, as cost estimates increased dramatically, project sponsors had
identified sufficient local funding sources to make up the difference and complete the
                                                                                                                   10

entire project. 7 This project has since been put back on track, but some of the
problems it encountered could have been avoided had a more rigorous review of the
project been performed early on.

FTA Should Consider Reevaluating the Transportation System
User Benefits With the Most Current Information Available

A key figure used to calculate the cost-effectiveness of a New Starts project is
transportation user benefits, specifically, an estimated number of hours saved by
weekday commuters in a future “forecast year” as a result of the project. According
to FTA, in the case of the Dulles Project, this figure was calculated in 2004, at the
time of approving the Dulles Project to enter preliminary engineering. Since then,
FTA refined its method for determining this figure in a way that would now exclude
certain user benefits that the Dulles Project included. FTA then made a decision not
to retroactively reconsider user benefits figures for older projects such as Dulles, even
though they have not been approved for full funding. Considering the heavy
competition for New Starts funding, we believe it is important that funding decisions
are made using the best and most current information available.

The New Starts process provides several points for FTA to review the merits of
proposed projects for good reasons, and the Dulles Project is at a critical point
(approval to enter final design). FTA’s policy, as stated in the fiscal year 2008 New
Starts Report to Congress, is in agreement with this idea as indicated in the following:
“FTA emphasizes that project evaluation and rating is an ongoing process. As
proposed New Starts projects proceed through the project development process,
information concerning costs, benefits, and impacts is refined and the ratings may be
reassessed to reflect new information.” 8

• FTA requires project sponsors to submit, in advance of the assessment of formal
  New Starts justification criteria, a series of reports and maps produced by a
  software tool called Summit. FTA makes this tool available to project sponsors,
  and the sponsors use data from their travel forecasting models as input to Summit
  to produce the required reports and maps. One output of Summit is a
  transportation user benefit figure—a key figure used in the calculation of
  cost-effectiveness.

• According to FTA officials, Summit was new when they approved the Dulles
  Project for entry into the preliminary engineering phase in 2004. However, FTA
  later gained a better understanding of Summit and realized that the transportation
  user benefit included travel hours saved during off-peak weekday hours by
  travelers who were not using any part of the Dulles Project extension, but only
7
    OIG Report Number IN-2001-051, “Interim Report on Seattle Central Link Light Rail Project,” April 4, 2001.
8
    Competition for New Starts funding is heavy. In February 2007, FTA reported that 10 projects were in the New Starts
    pipeline.
                                                                                         11

   existing track between the East Falls Church and Stadium Armory stations. Such
   riders would save time with the addition of the new silver line trains, which would
   add to the number of trains during off-peak hours, thereby shortening wait times
   (train frequency during peak hours is expected to be the same with or without the
   Dulles Project).

• FTA officials then deliberated on whether these hours were legitimate
  transportation user benefits resulting from the project. They subsequently
  concluded that inclusion of such hours could be controversial and changed their
  policy to exclude such benefits on subsequent New Starts projects. However, they
  did not believe it was fair to go back and reconsider other projects that had already
  moved forward in the New Starts process on the basis of including these hours.
  Therefore, FTA decided to perform future calculations of transportation user
  benefits excluding hours saved by travelers using only existing portions of the
  system, but not to reevaluate older projects, such as Dulles.

FTA officials have pointed to the considerable expenditures on the Dulles Project thus
far as a partial rationale for not revisiting the transportation user benefits at this time.
Nonetheless, we believe that the significantly higher amount estimated to be spent if
the Dulles Project goes forward is a more important consideration than the amount
already spent. Accordingly, FTA should consider reevaluating the transportation user
benefits for the Dulles Project in accordance with current FTA policy and use this
updated figure to make any decisions regarding the project’s New Starts funding.

FTA Must Closely Monitor the MWAA’s Management of the Dulles
Project During and After the Current Transition Period

The organizational structure of this project is already complex, considering the range
of key Federal, state, local, and private sector players with a stake in the project,
including FTA, the DOT TIFIA Credit Council, MWAA, the Virginia Department of
Rail and Public Transportation, WMATA, Fairfax County, and Dulles Transit
Partners. The ongoing transition of project control to MWAA only adds to the
complexity, and MWAA will be challenged by managing this network of public and
private organizations and their diverse interests.

FTA’s vigilant oversight will help to mitigate several potential management-related
and other risks posed by MWAA’s takeover of the project. Specifically:

• FTA must be sure that the lines of authority and roles and responsibilities are clear
  during and after the transition period toward MWAA’s takeover. It must also
  ensure that MWAA is fully staffed and has sufficient resources dedicated to
  oversight so that it is able to effectively manage the project.
                                                                                                                   12

• Because MWAA leases Dulles International Airport and the surrounding land
  from DOT—where much of Phase I would run—FTA should closely coordinate
  with other DOT offices as the transfer is reviewed to ensure that any arrangements
  MWAA enters into and any actions MWAA takes do not violate the lease terms.
  If the Dulles Project is approved for full funding, FTA will need to continue
  monitoring this situation throughout final design and construction.

The transition of project control to MWAA in particular poses a potential risk that
warrants FTA’s close oversight. The transition from the Virginia Department of Rail
and Public Transportation to MWAA is ongoing and has been delayed since at least
March 2007. Until the final transfer occurs, the two agencies will be sharing
responsibilities, which could create risks regarding which entity has ultimate
stewardship and oversight responsibility. Even after the transfer, such questions will
still exist because of the project’s complex organizational structure. For example,
MWAA will be in charge of final design and construction of the project, but it will
ultimately be owned and operated by WMATA.

In the past, we reported on projects that failed to implement an effective project
management and oversight structure. For example, the Boston Central Artery/Tunnel
(CA/T) Project, which experienced massive cost overruns and schedule delays,
presents many lessons learned regarding the project sponsor’s ineffective oversight.
These lessons are relevant in light of the MWAA’s lack of experience in managing a
mass transit project. The Massachusetts Turnpike Authority (MTA), which similarly
had little experience in managing an undertaking of the scope and magnitude of the
CA/T Project, hired a joint venture of Bechtel/Parsons Brinckerhoff to provide
preliminary designs, manage design consultants and construction contractors, track
the Project’s cost and schedule, advise MTA on Project decisions, and, in some
instances, act as the MTA’s representative. Eventually, MTA even combined some of
its employees with Bechtel/Parsons employees in an integrated project organization.
This was intended to make management more efficient, but it hindered MTA’s ability
to independently oversee Bechtel/Parsons Brinckerhoff because MTA and
Bechtel/Parsons Brinckerhoff had effectively become partners in the project. 9

MWAA has submitted to FTA for review a project management plan for the Dulles
Project. A thorough project management plan and FTA’s oversight to ensure that all
parties are following the plan should help to ensure that problems similar to those
encountered in the CA/T Project are avoided. However, there has already been some
disruption in the Dulles Project. Specifically, last year Virginia officials told us that
since the announcement of the upcoming transfer, the project had lost key staff
members and Dulles Transit Partners had assigned 25 percent of its staff to other
projects. Consequently, MWAA officials told us they have been covering temporary

9
    OIG Testimony CC-2005-027, “Impact of Water Leaks on the Central Artery/Tunnel Project and Remaining Risks,”
    April 22, 2005.
                                                                                                                          13

staffing shortfalls with consultants, and are planning to start staffing up in the near
future. FTA should closely monitor the project’s progress during this period of
significant transition so that the project stays on track.

FTA Must Ensure That the Dulles Project’s Contract and Related
Agreements Sufficiently Protect WMATA From Undue Risk

The unique design-build contract for this project presents potential risks for the
Federal Government, project sponsors, and the eventual owner-operator of the
Metrorail expansion, WMATA. FTA has been reviewing the design-build contract
and associated agreements as part of the New Starts process. To mitigate potential
risks, this review should ensure that these documents sufficiently protect WMATA in
particular.

WMATA was not a participant in the design-build contractual negotiations even
though it will eventually be forced to deal with the consequences. MWAA and
WMATA recently negotiated an agreement that is intended to offset the
disadvantages of WMATA’s lack of direct control over the project’s construction.
Before the project proceeds, FTA must ensure that this agreement contains sufficient
protections for WMATA. If approved, FTA will also need to ensure that WMATA’s
interests are protected as the project is constructed.

Specifically, FTA should ensure that WMATA’s interests are protected in three major
areas.

• As the entity that is responsible to Metrorail users, WMATA must be assured that
  the construction of the project meets WMATA standards so that future operating
  and capital replacement costs are minimized. Specifically, WMATA should have
  assurance that the project is constructed in a way that includes certain items that
  WMATA has deemed necessary to the safe, efficient, and effective operation of
  Metrorail. For example, WMATA officials told us that they consider the heating
  of third rails as being essential to avoid interruptions of service in winter weather.

• WMATA must also have sufficient warranties against latent defects in the design
  or construction of the project that may not surface for years. This is particularly
  important, because WMATA will not directly oversee the work of contractors
  constructing the project—as it did with the recent Largo extension.

• MWAA as project sponsor—not WMATA as eventual owner-operator—will be
  the entity that has the authority to declare “substantial completion” of the Dulles
  Transit Partners contract. 10 WMATA must have assurances that MWAA does not
  declare substantial completion on a product that does not meet WMATA’s needs.

10
      Per chapter 8 of FTA’s “Best Practices Procuement Manual,” “Substantial completion is usually defined as the time
     when the construction site or the supplies delivered are capable of being used for their intended purposes.”
                                                                                 14


RECOMMENDATIONS

 1. We recommend that the Federal Transit Administrator:

    a. Conduct all of the reviews involved in the New Starts process per FTA
       regulations with extra vigilance and consider going beyond those reviews
       regarding the sufficiency of local funding sources, the contractual and
       associated arrangements that deal with WMATA, and MWAA’s project
       management plan.

    b. Consider reevaluating the transportation user benefits for the Dulles Project
       in accordance with current FTA policy and use this updated figure to make
       any decisions regarding New Starts funding for the project.

    c. Closely coordinate with the TIFIA Credit Council to share information
       about the project.

 2. We recommend that when reviewing the TIFIA loan application, the TIFIA
    Credit Council conduct an independent rigorous review of the Dulles Project
    that takes into account all of the unusual risks associated with the project.
                                                                                  15




AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to FTA for comment on July 20, 2007. On
July 25, 2007, FTA provided us with its formal comments, which are contained in
their entirety in the Appendix. FTA agreed with the information in the report and
stated that it would respond to the specific recommendations within the next 30 days.
In its July 25, 2007 comments, FTA did not indicate whether or not it concurred with
the recommendations.        Therefore, we request that FTA respond to the
recommendations in its response to this final report.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
FTA provide us with responses to the recommendations within 30 calendar days from
the date of this report. If you concur with the recommendations, please indicate the
specific action taken or planned for each recommendation and the target date for
completion. If you do not concur, please provide your rationale. You may provide
alternative courses of action that you believe would resolve the issues presented in
this report.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning this report, please call me at (202) 366-
5630 or Thomas Yatsco, Program Director, at (202) 366-1302.


                                          #



cc: Secretary of Transportation
    Assistant Secretary for Transportation Policy
    Assistant Secretary for Budget and Programs
    Members, TIFIA Credit Council
                                                                                              16


EXHIBIT A. FACT SHEET ON THE STATUS OF THE DULLES
CORRIDOR METRORAIL PROJECT

As part of our major project monitoring effort, we developed the following fact
sheet that summarizes key points regarding the status of the Dulles Project.

                                    PROJECT DESCRIPTION
•   The entire Dulles Project proposes a 23.1-mile extension of Metrorail in the Commonwealth
    of Virginia, including 11 additional Metrorail stations. The project is segmented into two
    distinct phases. The bulk of this fact sheet deals with Phase I, which is currently in the New
    Starts pipeline and is being considered for approval for entry into final design.
•   Phase I: The first 11.6-mile segment of new construction would originate at the existing
    orange line tracks between the East Falls Church and West Falls Church Stations and run
    through the Tysons Corner area to Wiehle Avenue in Reston.
•   Phase II: The second 11.5-mile extension, from Wiehle Avenue west, through Dulles
    International Airport, and to Route 772 in Loudoun County, is designated as Phase II.
    Phase II is in the preliminary engineering phase and may not involve any Federal funding.
•   Vehicles: Phase I includes the purchase of 64 new heavy rail cars.

See Exhibit C for a map of the project.

                                       PROJECT TEAM
The current lead agency for construction is currently the Virginia Department of Rail and Public
Transportation (DRPT). Technical support comes from the Washington Metropolitan Area
Transit Authority (WMATA), which will ultimately own and operate the new Metrorail
segments. The Metropolitan Washington Airports Authority (MWAA) is expected to become the
lead agency for construction sometime in 2007, which will coincide with its takeover of the
operations of the Dulles Toll Road. Dulles Transit Partners (DTP), LLC has served as the
project’s preliminary engineering contractor under the Virginia Public-Private Transportation Act
and will now serve as the design-build contractor. DTP is owned by Bechtel Infrastructure, Inc.
and Washington Group International.

                                   PROJECT PARTNERS
In addition to the project team, project partners include Fairfax County, Loudoun County, the
Virginia Department of Transportation (VDOT), the Town of Herndon, FTA, and the Federal
Aviation Administration.

                          CONTROVERSY OVER PHASE I DESIGN
•   In response to public input, in May 2006, the Virginia Secretary of Transportation established
    a tunnel review panel with the American Society of Civil Engineers to provide a
    recommendation on the option to route Phase I through a tunnel in most of the Tysons Corner
    area. A mostly aerial design with only a short tunnel had already been designated as the
    locally preferred alternative.




Exhibit A. Fact Sheet on the Status of the Dulles Corridor Metrorail
Project
                                                                                               17


•   In July 2006, the tunnel review panel reported that the difference in expected costs between
    the tunnel option, and the original elevated structure with a short tunnel, was only
    $250 million. However, ASCE stated that the report was only the opinion of the panel
    members and that ASCE did not “certify, guarantee, nor warrant the work in this report.”
    Additionally, the panel did not attempt to quantify all potential cost impacts.
•   On September 6, 2006, the Governor of Virginia decided against the tunnel alternative
    because too many unanswered questions remained about cost and schedule, and because he
    believed the potentially higher costs of a tunnel could have jeopardized the possibility of
    Federal funding.
•   Despite continued efforts by some members of the public, the project has continued to
    proceed assuming the original design with only a short tunnel.

                                               COST
•   The final environmental impact statement (of December 2004) projected a Phase I of cost of
    $1.521 billion. In August 2005, an independent cost estimate based on 50 percent
    preliminary engineering (PE) design set Phase I’s estimated cost at $1.840 billion, a
    20 percent increase over the previous projected cost. It was based on a more detailed design,
    a better understanding of the planned construction approach, and significant changes in right-
    of-way, materials, labor, and fuel costs.
•   In October 2005, FTA’s project management oversight consultant (PMOC) performed an
    evaluation of the $1.840 billion cost estimate and concluded that the contingency and
    inflation factors used in the estimate were insufficient.
•   In April 2006, a general engineering consultant (GEC) prepared an independent cost estimate
    based on the true 100 percent Preliminary Engineering design and incorporating revised
    contingency and inflation factors as recommended by the PMOC. The GEC set Phase I’s
    estimated cost at $2.065 billion. DRPT subsequently adopted a Phase I budget of $2.065
    billion.
•   The PMOC found significant issues with the $2.065 billion estimate in a review performed in
    September/October 2006. The PMOC concluded, “the escalation factor used was inadequate,
    the contingency was too low, and the project’s cost and schedule could be seriously impacted
    due to the many uncertainties identified as a result of the lack of design and/or missing scope
    in the 100% PE design.”
•   Based on the March 2007 negotiation of the design-build contract with DTP, the cost estimate
    is presented as a range of $2.4-2.7 billion because there is uncertainty as to how much the
    “agency costs,” which are outside of the DTP contract, will be. Agency costs include project
    management, rail cars, start-up, and testing. FTA is now evaluating this estimate.

                                             FUNDING
•   The sources of funding for Phase I were previously identified, but MWAA has renegotiated
    funding shares in connection with assuming the Commonwealth’s remaining financial share
    of the project.
•   A new funding breakdown will not be available until after FTA finishes evaluating the cost
    estimate. However, the current plan is to build Phase I using $900 million in Federal New
    Starts money, with the rest covered by Dulles Toll Road revenues, revenues from a Fairfax
    County special tax district, and a small amount from the Commonwealth of Virginia.
•   MWAA has also applied for a DOT Transportation Infrastructure Finance and Innovation Act
    (TIFIA) loan of $375 million, plus a $200 million TIFIA line of credit to be used as needed.
    The loan is to be repaid from Dulles Toll Road revenue.



Exhibit A. Fact Sheet on the Status of the Dulles Corridor Metrorail
Project
                                                                                                 18



                        PROJECT IMPLEMENTATION SCHEDULE
•   In addition to the Dulles Project sustaining substantial cost growth over the last few years, the
    schedule to complete construction and begin revenue service on Phase I has slipped
    from 2009 to 2013.
•   Additional schedule slippages are probable, because at last report, the June 2007 dates listed
    below were annotated as “delayed,” and later dates were annotated as “at risk.”

Phase I Schedule
• Initiate Preliminary Engineering: June 10, 2004
• Complete Preliminary Engineering: April 2006
• Submit Request to Enter Final Design: April 28, 2006
• General Agreement on Transfer to MWAA: October 31, 2006
• Amended Record of Decision: November 17, 2006
• Toll Road Transfer and Permit Agreements: December 29, 2006
• Submit TIFIA Loan Application: January 16, 2007
• Final Negotiation of Design-Build Contract: March 2007
• Submit Full Funding Grant Agreement Application: June 20071
• Transfer of the Dulles Toll Road and Metrorail Project to MWAA: June 20071
• Final Design Approval: June 20071
• Execute Full Funding Grant Agreement: December 20072
• Start Construction: December 20072
• Complete Construction: September 20122
• Start Pre-revenue Operations: December 20122
• Revenue Service: March 20132
1
Delayed, per May 2007 PMOC report.
2
At risk, per May 2007 PMOC report.




Exhibit A. Fact Sheet on the Status of the Dulles Corridor Metrorail
Project
                                                                                   19




EXHIBIT B. OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to identify potential risks that may prevent the Dulles Project
from being completed on time and within budget. Specifically, our objectives
were to (1) assess the status of the project, including costs, funding, and schedule
and (2) identify any potential risks that may adversely impact its completion.

We began by reviewing and collecting relevant material from an earlier
monitoring effort of the project. We then adapted project monitoring material that
our office had developed over the last several years for other major projects, as
needed to fit this particular project. Specifically, these materials consisted of data
requests and questionnaires for cognizant DOT offices and for project personnel.
We sent the adapted requests and questionnaires to FTA and to DRPT, and they
provided us the requested data and responses to questions.

We evaluated the collected material, researched related material, and have
regularly directed follow-up inquiries to FTA, DRPT, and MWAA as needed. We
conducted meetings at FTA offices, the project office, MWAA, and WMATA. We
have also kept ourselves updated on recent developments through project Internet
sites, periodic project reports, news sources, and periodic inquiries to see whether
events are progressing on schedule and whether new developments have occurred.
Further, we assessed OIG’s prior reports and testimony statement on major
highway and transit projects for lessons learned and risk indicators.

We analyzed all the collected information to identify potential risk areas that we
present in this report. Because this was a monitoring effort, we have not
performed any detailed audit verification, but we did look for and resolve
inconsistencies in the material presented. We conducted our major project
monitoring work from June 2006 to July 2007 in accordance with Generally
Accepted Government Auditing Standards as prescribed by the Comptroller
General of the United States.




Exhi bit B. Objectives, Scope, and Methodology
                                                                            20




EXHIBIT C. MAP OF THE DULLES CORRIDOR METRORAIL PROJECT, PHASES I AND II




Source: Dulles Corridor Metrorail Project.




Exhi bit C. Map of the Dulles Corridor Metrorail Project, Phases I and II
                                                           21




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  Tom Yatsco                           Program Director

  Tyler Apffel                         Project Manager

  Frank Schutz                         Senior Auditor

  Tom Wise                             Senior Auditor

  Oleg Michalowskij                    Senior Analyst

  Thomas Lehrich                       Chief Counsel

  Seth Kaufman                         Associate Counsel

  Harriet Lambert                      Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                22




             APPENDIX. MANAGEMENT COMMENTS




                                            Administrator                   1200 New Jersey Ave. S.E.
                                                                               Washington, DC 20590
U.S. Department
of Transportation
Federal Transit
Administration
                                                 July 25, 2007




Brigadier General Calvin Scovel
Inspector General
Office of the Inspector General
U.S. Department of Transportation
1200 New Jersey Avenue, SE
Washington, DC 20590

Dear Brigadier General Scovel:

Thank you for the opportunity to review the Office of the Inspector General draft report
“Baseline Report on the Dulles Corridor Metrorail Project” (Project No. 07M3007M000) dated
July 20, 2007.

The Federal Transit Administration agrees with information contained in your report and will
respond to your specific recommendations within the next 30 days. In the meantime, please do
not hesitate to contact me directly at (202) 366-4040, if you have any questions or if you need
any additional information regarding the Dulles Corridor Metrorail Project.

Thanks again for your time and interest in this project.

Sincerely,




James S. Simpson




             Appendix. Management Comments
